Supreme Court. U.S.
FILED

MAY 2 1 2020
No.

11-Ml

OFFICE OF THE CLERK

In The

Supreme Court of the United States
Cheryl A Wolf
Raymond J Fallica
Mary Piscitello
Petitioners

v.
United States
Respondent
On Writ of Mandamus original proceeding
To the D.C. Court of Appeals

PETITION FOR WRIT OF MANDAMUS

Cheryl A Wolf
Pro Se
P O Box 1853
Quogue N Y 11959
(631) 747-6124

Mary Piscitello
Raymond J Fallica
Pro Se
Pro Se
323 Sea Cliff Avenue
6 Ethel Court
Wheatley Heights N Y 1178 Sea Cliff N Y 11579
(631) 747-6297
(631) 374-4649

RECEIVED
may

2 7 2020

/i

QUESTIONS PRESENTED
1. Respondent created Court Technicality reiterated false
claim, incarcerated prisoner, common law originated U.S.
Court Federal Claims case 04CV226! no legal merit False
Claims litigation Case 04CV226 USCFC technicality no legal
standing in a limited court jurisdiction Tucker Act: does
Respondent void right to fair trial equated free U S citizens as
incarcerated prisoners, established guilty without being
heard, no trial, Respondent practiced English law is it
constitutional?
2 Court reiterated origin USCFC technicality voids right to
file grievance, suppressed evidence of grievance to be heard,
enabled Respondent denies Reexamination Clause, Court
Technicality enabled suspend Bill of Rights without due
process by issuance common law voids complaint without due
process, suppressed evidence never to be heard.' is this court
technicality a direct violation of Ninth Amendment ?
1

3. Courts routinely used incarcerated prisoner common law
doctrine^ does it obstruct due process Clause Fifth Fourteenth
Amendments alters U S government from within voids
Guarantee Clause U S Constitution enables Office of
President agencies alter law arbitrarily be above the law
enabled certified fraud legal; decisions outside jurisdiction
U.S Constitution voids Republic? Yes or no
LIST OF PARTIES
Petitioners Cheryl A Wolf, Dept, of Defense Contractor
Cage Code 03PL0 P 0 Box 1853 Quogue NY 11959 Raymond
J Fallica 6 Admin. D.O.D. Contractor Cage Code 03PL0 6
Ethel Court Wheatley Heights NY 11798, Mary Piscitello 323
Sea Cliff Avenue Sea Cliff NY 11579:
The Respondent United States: attorney representing
United States: Solicitor General of United States Room 5614
Dept, of Justice 950 Pennsylvania Ave N Washington D C
20530-0001
u

TABLE OF CONTENTS

Page

Questions Presented

1

List of Parties

n

Opinions below

1

Jurisdiction

3

Constitutional and Statutory Provisions

7

Statement of Case

10

Granting Writ

36

I. Respondent voided Rights of the Individual

42

II. Petitioners Never Heard

58

Conclusion

74

Appendix 1

78

Exhibit 1

79-81
m

Table of Authorities

Page No.

Cases
Adamson v. California, 332 U.S.46, 332 U.S.68 (1947)

66

Antoni v Greenhow 107 U.S. 469, 27 1. ed. 468

50

Arthur Young & Co. v. United States District Court,
supra, 549 F.2d at 691-692, 692-697

6

Bankers life & Cas. Co. v Holland 346 U.S 349
382-385 74 S.Ct 145, 98 L.Ed 762:

70

Bolling v. Sharpe, 347 U.S. at 500

54

Bulloch v. United States, 763 F.2d 1115, 1121
(10th Cir. 1985),

57

Bush v. Palm Beach County Canvassing Board,
531 U.S. 70 (2000),

37

Carolene Products Footnote 4, 304 U.S. 144

68

Cheney v. United States Dist. Court for D.C.,
542 U.S. 367, 380-81 (2004)

40

Cohen v, Beneficial Industrial Loan Corp.
337 U.S. 541 1949;

35

IV

Table of Authorities continued
Cases

Page No.

Cusino, 694 F.2d at 187

73

Difrischia v New York Central railroad Company
307 F.2d 473 (3d Cir. 1960)

48

Envelope Co. v. Denominational Envelope Co.,
80 F.2d 179, 182 (4th Cir. 1935)

48

Erie Railroad v Tompkins, 304 U S 64 (1938)

49

Faretta v. California, 422 U.S. 806 (1975)

62

Green v. Biddle, 8 Wheat. 1, 84,

51

Griswold v. Connecticut, supra, at 381 U.S. 507 (1965)

66

Hartland v. Alaska Airlines, 544 F.2d 992
(9th Cir. 1976)

6

Hickman v. Tavlor. 329 US 495. 329 US 507.

62

Horman v. United States, 116 F. 350, 352 (6th Cir.),
cert, denied, 187 U.S. 641 (1902))

73

Kenner v. C.I.R., 387 F.3d 689 (1968)

58

LaBuy v. Howes Leather Co., supra,
352 U.S. at 255-60, 77 S.Ct. 309

6

Langford v United States 101 U.S 341

40

v

Table of Authorities continued
Cases

Page No.

Lynch v. Household Finance Corp., 405 U.S. 538 (1972)

54

Marbury v Madison 5 U.S. (1 Cranch) 137, 176 (1803)

53

McDonnell Douglas Corp. v. United States District
Court, supra, 523 F.2d at 1087

6

Monell vs Social Services 436 U.S. 658 (1978)

47

Mullane v Central Hanover Bank & Trust
339 U.S. 306, 70 S. Ct. 652 (1950)

47

Providence Bank v. Billings, 4 Pet. 514, 560,

50

Schlagenhauf v. Holder, 379 U.S.104, 111, 85

7

State of New Jersey v. Wilson, 7 Cranch, 164, 166,

50

Trop v. Dulles, 356 U.S. at 103

55

Wolff v. New Orleans, 103 U.S. 358, 367,

51

Woodruff v. Trapnall, 10 How. 190, 207,

51

U.S. v Margiotta, 688 F.2d 108 (2nd Circ 1982)

45

United States v. Nixon, 418 U.S. 683 (1974).

41

United States v. Regent Office Supply Co.,
421 F.2d 1174, 1180-81 (2d Cir. 1970)

73

vx

Table of Authorities continued
Cases

Page No.

United States v. Reid, 533 F.2d 1255, 1264 n.
34 (D.C. Cir. 1976)

73

United States v. Sciuto, 521 F.2d 842, 845 (7th Cir. 1996) 54
Table of Authorities continued
Statute and Amendments

Page No.

All Writs Act 28USC 2651

3

Article II U S Constitution

34

APA FAR

17

APA FAR 14

49

APA FAR 3.101

49

APA FAR Christian doctrine

12

APA FAR 14.409-1 Notice of award

44
6

APA FAR 50 Extraordinary circumstances
Civil Rights Act 1866

39

Congress Vesting Clause

21

Conspiracy Defraud United States 18 USC 371

8

vu

Table of Authorities continued
Statute and Amendments

Page No.

Conspiracy against Rights 18USC242

8

Contract Clause Article I Sec 10

39

Constitution Article II

34

Constitution Article III

34

Deprivation of Rights

18USC241

Destruction Evidence 18USC 1519
False Claims Act 31 U.S.C. §§ 3729 - 3733
False Statements 18USC1001

8
8

39
7

FRCP 26 B (iv)

69

Fifth Amendment

27

First Amendment

63

Fourteenth Amendment

27

Due process Clause

69

Enablement Clause 14th Amendment

41

vm

Table of Authorities continued
Statute and Amendments

Page No.

Equal Protection Clause

53

Liberty Clause 14th Amendment

41

Table of Authorities continued
Statute and Amendments

Page No.

Guaranteed Clause U S Constitution

36

Hobbs Act 18 USC 1951

9

Interference with Federal Statute 10 USC333

8

IRS self dealing laws 26USC4941

39

Misprision of felony

8

Misprision of treason

8

Necessary and Proper Clause

28

Obstruction of Justice 18USC1503

19

Perjury

18USC1621

7

Reexamination Clause

68

Rico 18USC1961

39

Thirteenth Amendment

9
IX

Treason

8

Tucker Act 28 USC1491

5

Table of Authorities
Miscellaneous

Page No

Commentaries on the Constitution of United States
§1007 (5th ed. 1905)-, Joseph Story

63

George W Bush May 1, 2005 Proclamation:
dissembled conduct

65

Edmund Randolph

53

Federalist Papers No 43.

53

M. Hale, The History of the Common Law of England
343-345 (6th ed. 1820);
3 W. Blackstone Commentaries *372-*373.

64

7 Moore's Federal Practice, 2d ed., p. 512,

58

60.23

Rationale of Judicial Evidence J. Bentham

64

Rights of man

63

Valparaiso University Law Review, Vol. 26, No. 1
[1991], Art.26] FOR TODAY'S CONSTITUTION 429

59

View of the Constitution of the United States
by St. George Tucker,

41

x

OPINIONS BELOW
Case 19-5291 D.C. Circuit Court of Appeals original
jurisdiction decision new matter Respondent voided
Ninth Amendment by misapplication doctrine
incarcerated prisoner common law; Respondent
United States! specificity misuse of court created
technicality misapplied initiated origin U.S. Court
Federal Claims facilitated misuse incarcerated
prisoner common law, a form civil rights law given
standing U.S. Court Federal Claims malice intent,
misuse civil rights incarcerated prisoner common law
suppressed evidence by FRCP 26 B(iv) deny duty
disclosed evidence established by Appendix 1 two
letters established self dealing government contracts!
Respondent’s Court created technicality doctrine
misapplied in Court, civil rights no legal standing!
Court doctrine technicality direct conflict Tucker Act
28USC 1491. Court addressed past cases as heard,
1

doctrine incarcerated prisoner common law voids
Petitioners merits by denial duty disclosed FRCP
26B (iv) case legal merits never heard; just
Respondent continuity conduct certification false
statement void of statute, Constitutional
Amendment! all orders issued on created common
law from the bench established Respondent’s open
hostility to standing law Marbury v Madison legal
foundation Supremacy Clause U S Constitution^
Courts opinion affirmation doctrine incarcerated
prisoner created decision outside jurisdiction U.S.
Constitution. Respondent certified fraud as fact;
Respondent’s decisions unsuccessful bidder without
APA FAR 14 notice established created law from the
bench, all decisions originated U.S. Court Federal
Claims Respondent failure preserve defend
Constitution Article II; opinion allowed status quo
self dealing government contracts; doctrine
2

incarcerated prisoner common law established abuse
power facilitated suspension Bill of Rights without
due process; interference federal statute, Civil
Rights Act 1866 False Claims Act Rico. Respondent
violated Article IV Guaranteed Clause Constitution,
Respondent altered government from within by
destruction inalienable rights. Court certified fraud
all other court recertified fraud destroys inalienable
rights judicial opinion issued enabled expansion of
power outside jurisdiction U. S. Constitution voids
Respondent’s legitimacy to govern
JURISDICTION
Extraordinary writ petitioned; judicial abuse created
common law voids inalienable rights; jurisdiction; 28
USC 1651 All Writs Act authorize United States
federal courts to "issue all writs necessary or
appropriate in aid of their respective jurisdictions,

3

agreeable to the usages and principles
of law."Petitioners grievance defend Principles U.S.
Constitution Bill of Rights secure American people
inalienable rights to property contract liberty rights
voided by court created incarcerated prisoner
common law doctrine destroys inalienable rights^
property contract liberty rights. Petitioners’
jurisdiction Ninth Amendment, All Writs Act
mandates Respondent act within jurisdiction U.S.
Constitution, Respondent nullified Ninth
Amendment; IRS enabled self enrichment
government contracts exposed June 10, 1996; IRS
failure prosecute, established treason 18USC 2881;
IRS certified illegal acts self dealing manipulations
501C foundation IRS certified legal enabled by
Respondent doctrine redefined American people
constitutional freedom equated as incarcerated
prisoners without bars by declaration; Respondent
4

issued Court created doctrine incarcerated prisoner
common law with no legal merits False Claims
litigation enabled Respondent created common law
from the bench issued fabricated false statements
18USC1001 unsuccessful bidder; voided United
States Constitutional law (1) Respondent affirmed
condition precedent “incarcerated prisoner” common
law suspends duty to disclosed, suppressed evidence
FRCP 26B(iv) (2) established denies right to be
heard, denies access to courts, established freedom
denied, not correctable by appeal: Respondent
conduct raises new issues, misapplication rational
basis test civil rights standing U.S. Court Federal
Claims voided Tucker Act 28USC1491 established
Respondent altered government; (3) petitioners have
no other adequate means as direct appeal for
Petitioners are damaged; denied fairness by
destruction evidence, suppressed Equal Protection
5

Clause as a matter of law

Arthur Young & Co. v.

United States District Court, supra, 549 F.2d at 691692, 692-697, Hartlandv. Alaska Airlines, 544 F.2d
992 (9th Cir. 1976) (4) Respondent order, an oftrepeated created law doctrine incarcerated prisoner
common law by misapplication rational basis test
established persistent disregard of federal rules;
issued at origin voided Tucker Act, “incarcerated
prisoner” common law, civil rights law applied, legal
merits no Petitioner litigated “incarcerated”,
established Respondent nullified Thirteenth
Amendment U.S. Constitution! established APA FAR
50 exceptional circumstances see, LaBuy v. Howes
Leather Co., supra, 352 U.S. at 255-60, 77S.Ct. 309;
McDonnell Douglas Corp. v. United States District
Court, supra, 523 F.2d at 1087. (5) Respondents
orders raises new, important problems, or issues of
law! suppression of evidence enabled obstruction of
6

justice; established no oversight government
spending, altered government within voided
Constitution Guaranteed Clause Article IV; clear
abuse of discretion, Schlagenhauf v. Holder, 379
U.S.104, 111,85 applies '■ Supremacy Clause
mandates nondiscretionary action .
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Respondent court created technicality obstructed
Due Process Clause Fifth Fourteenth Amendment by
misuse incarcerated prisoner common law issued
with malice intent suppressed evidence; Respondent
nullified APA Far Statute government contracts
law, mortgage fraud by obstruction sole intent
suppression, destruction of evidence 18USC1519 by
False Statements 18USC1001, through perjury
18USC 1621 violated conspiracy defraud United

7

Statesl8USC371 by deprivation of rights 18USC241,
conspiracy against rights 18USC 242 voided
Petitioners’ contract property rights nullified Ninth
Amendment conceal office of president agency IRS
not only failure prosecute established treason
18USC2381, IRS facilitator self dealing government
contract, extortion 18USC1961 an unlawful act self
dealing misuse of office certified lawful enabled by
Respondent Office of President collusion with courts
misprision of felony 18USC4 by Respondent’s
misapplication incarcerated prisoner common law
equated free citizens incarcerated prisoners without
bars violated liberty due process enablement clause
Fourteenth Amendment suppressed Equal Protection
Clause by denial duty disclosed evidence established
interference with Federal Statute 10USC333
specifically False Claims Act Civil Rights Act 1866:
Respondent’s enabled suppression of freedom
8

established suppression commerce clause a clear
violation Hobbs Act 18USC 1951, arbitrarily suspend
bill of Rights without due process by systemic
continuity of conduct Respondent constructive
knowledge repealed Thirteenth Amendment voided
Respondent civilian authority legitimacy; voided
Guaranteed Clause by abuse of power incarcerated
prisoner common law doctrine void inalienable rights
established Respondent’s conduct tyranny arbitrarily
make a declaration unsuccessful bidder on
government contracts with no APA Far 14 notice
evidence unsuccessful bidder established Petitioners’
jurisdictional right Petition Ninth Amendment
Respondent voided legitimacy U.S. government;
failure govern fairly by fabricated fact as law enabled
by court technicality suppressed Equal Protection
Clause facilitated destruction inalienable rights gives

9

foundation government BROKEN, Respondent no
longer represents the people.

STATEMENT OF THE CASE
Respondent failure enforce law instead created
common law suspend Bill of rights specifically First
Fifth Seventh Fourteenth Amendment by
Respondent inversed presumption of innocent,
misused incarcerated prisoner common law doctrine
Respondent equates all free U.S. citizens as
incarcerated prisoners without bars established legal
foundation Respondent voided Ninth Amendment;
Respondent conduct origins incarcerated prisoner
common law misapplied; no legal merits case
litigation origin False Claims litigation U.S. Court
Federal Claims 04CV226 government contract APA
Far Statute EXHIBIT 1 evidence no contracting
10

officer established self dealing government contracts
exposed IRS failure prosecute 1996 by IRS
dissembled conduct exposed January 2004 IRS
statement, “IRS does not investigate fraud”,’.
Contract fraud established Petitioners protect
inalienable rights contract initiated at origin False
Claims Litigation against Respondent U.S. Court
Federal Claims Washington D C; Respondent
originated incarcerated prisoner common law
doctrine! misapplied civil rights incarcerated
prisoner common law doctrine U.S. Court Federal
Claims where doctrine has no legal standing; Tucker
Act 28USC1491 established Respondent contempt
rule of law, interfere with due process void
enablement freedom due process clause Fourteenth
Amendment, Respondent facilitated fraud by
continuity conduct issued false statements
unsuccessful bidder enabled by judicial abuse,
11

misapplied rational basis test violated Congress
mandates due process Tucker Act 28USC1491
dictated strict scrutiny: U.S. Court Federal Claims
no legal standing civil rights Respondent voided U.S.
Congress Vesting Clause; systematically asserted
false statement 18USC1001 unsuccessful bidder;
evidence stated there are no contracting officers
exhibit ! '■ APA FAR Christian doctrine,' contracts
apply FAR regulations, due process APA FAR statute
defines unsuccessful bidder government contracts by
contracting officers report by FAR 14 Notice
unsuccessful bidder, Respondent is without notice,
Petitioners’ evidence established no contracting
officer foundation unsuccessful bidder aforethought
declarative false statement established fiction
misused as fact violated 18USC1001 false
statements! Respondent intent evade police action
litigation False Claims Act Rico Civil Rights Act
12

1866 initially against IRS interfered False Claims
litigation violation 10USC333 interference with
federal statute exposed by U.S Tax Court Case 3747041 judicial findings same exact evidence, U.S. Court
Federal Claims Case 04CV226; judicial findings
established Respondent unsuccessful bidder false
statement; Petitioner Wolf HIRED U.S. Tax Court
strict scrutiny established Reexamination Clause
exposed U.S. Court Federal Claims orders outside
jurisdiction U.S. Constitution, established corrupt
court enabled by other courts misused incarcerated
prisoner common law conceal obstruction of justice
18USC1503 originated U.S. Court Federal Claims.
Respondent facilitated willful blindness enabled
court acceptance unsuccessful bidder no evidence of
bid mandated by voice of the legislature!
Congressional Statute APA FAR14 unsuccessful
bidder defined by Contracting Officers notice defined
13

unsuccessful bidder by APA FAR solicitation process,
Petitioner’s evidence exposed contracting officer does
not exist then bidder does not exist just
Respondent’s declaration false statement enabled by
Respondent incarcerated prisoner doctrine
established destruction evidence 18USC1519 void
Exhibit One letter stated No C.O.R. C.O.T.R.,
acronyms for contracting officers; Respondent
doctrine incarcerated prisoner common law
foundation civil rights law no legal standing U.S.
Court Federal Claims; Tucker Act 28USC1491. Civil
rights no legal force U.S. CTFCL was misapplied
violated Equal Protection Clause enabled
Respondent, facilitated destruction evidence enabled
denied duty disclosed; denied evidence be heard.
Petitioner’s contract liberty property rights;
inalienable rights voided Respondent authority as
legitimate government nullified Ninth Amendment
14

protections proceeded destruction inalienable rights
by Respondent’s conduct voids accountability to rule
of law by denial duty disclosed evidence, established
courts suppressed Equal Protection Clause;
Respondent only intent issuance court technicality
incarcerated prisoner common law enabled
Respondent voided duty disclosed evidence
facilitated willful blindness by incarcerated prisoner
doctrine voids Pro Se rights for self representation
exposed after litigation FBI failure enforce U.S.
Constitution Reexamination Clause; December 2018
decision court issued only incarcerated prisoner
common law exposed common thread incarcerated
prisoner common law misused in every case since
origin U S Court Federal Claims: continuity conduct
exposed Respondent’s misapplication incarcerated
prisoner common law since no Petitioner
incarcerated prisoner litigated established no legal
15

merits to grievance- upon research exposed this
doctrine singular purpose denies duty disclosed
evidence^ Petitioner’s evidence never heard;
Respondent suppressed evidence judicial findings
voided by this doctrine voids Bill of rights
Reexamination Clause; evidence suppressed exposed
Respondent destruction contracts facilitated
government self dealing contracts within the
government exposed by Exhibit One: misuse office
18USC1961 Extortion; Petitioners’ evidence
established self dealing government contracts
without contracting officers. Respondent suppressed
evidence by systemic misapplication incarcerated
prisoner common law doctrine: Piscitello contract
destroyed upon judicial findings exposed mortgage
fraud financed fraud upon court, enabled destruction
of Piscitello contract by false statements! Respondent
Court misused technicality incarcerated prisoner
16

common law destroyed evidence void grievance be
heard enabled by misapplication incarcerated
prisoner common law interfered federal statute
Civil Rico Civil Rights Act 1866 , Petitioner Wolf
Fallica DOD Contractor APA FAR statutes nullified;
conceal evidence two letters exposed IRS certified
self dealing government contracts an illegal act as
legal: Respondent conceal failure prosecute,
fabricated unsuccessful bidder with misapplication
rational basis test initiated original case U.S. Court
Federal Claims 04CV226; opinion decision certified
fraud: Congress APA FAR Statute defined
unsuccessful bidder: evidence established no
contracting officer exists established no oversight
government spending enabled Respondent facilitated
government contract fraud by issuance self dealing
government contracts exposed by Petitioners’
evidence. Respondent facilitation misapplication
17

incarcerated prisoner common law doctrine
empowered FRCP 26B(iv) deny duty disclosed
evidence; enabled Respondent suppressed evidence
voids opportunity be heard; doctrine violates voice of
the legislature: self dealing government contracts
mortgage fraud both situations known threats
National Economic Security, enabled by
Respondent’s court technicality misapplication
incarcerated prisoner common law facilitated no
legal merits case presented: court technicality sole
intent destruction evidence interfere Federal Statute
10USC333; court created common law voided
Seventh Amendment Reexamination Clause,
destruction of evidence 18USC1519 by false
statements 18USC1001 stated as fact established
18USC1621 perjury enabled deprivation of rights
18USC241.Respondent Executive judiciary abuse of
power by issuance misapplication civil rights given
18

standing U.S. Court Federal Claims established
collusion. Respondent suppressed evidence enabled
by misapplication incarcerated prisoner common law
doctrine civil rights Courts gave standing civil rights
enabled Respondent voided Tucker Act 28USC1491,
impaired administration of justice established fraud
upon the court violated obstruction of justice
18USC1503, foundation established conspiracy
against rights 18USC242; misapplication
incarcerated prisoner common law only intent
suppressed duty to disclosed evidence FRCP 26B(iv);
established aforethought act suppressed Equal
Protection Clause; Respondent no legal merits
introduce any incarcerated prisoner common law
from inception Wolf Fallica Piscitello Cases:
04CV206, 08CV5071, 14CV5999, 16CV9436,
19CV00696 established Misprision of felony 18USC4
conceal U.S. Court Federal Claims certified fraud
19

established foundation original proceeding 19-5291
D.C. Circuit Court of Appeals^ dissolve civilian
authority by Respondent continuity of conduct
facilitated evidence destroyed, suppressed; enabled
Respondent created common law from the bench,
obstructed Supremacy Clause established by
Respondent’s misapplication incarcerated prisoner
common law equated Petitioners Pro Se free citizens
as incarcerated prisoners without bars when there
are NO INCARCERATED PRISONERS; Respondent
voided Bill of Rights, Respondent voided
constitutional freedoms suspended by Respondent
technicality aforethought act established foundation
arbitrary conduct; origins misapplication
incarcerated prisoner common law 2004 U.S. Court
Federal Claims Case 04CV226; exposed Jan 2019
fraud upon court by Respondent. Respondent
enforced created common law from the bench voided
20

Bill of rights, decisions on all cases voided statute
legal foundation; established all decisions without
APA FAR 14 notice enabled Respondent misused
rational basis test denied First Amendment right be
heard when Respondent dissembled conduct
suppressed evidence be heard, established
Respondent outside jurisdiction U.S. Constitution.
Respondent nullified APA FAR statute; obstructed
due process False Claims Act Civil Rights Act 1866
Rico,' voided constitutional rights protect individual
rights specifically inalienable rights; contract
property liberty! Respondent established by conduct;
corrupt government voided Congress’s Vesting
Clause denies rights of the individual muted.
Respondent court created technicality, aforethought
act suppressed evidence never be heard enabled by
suspension Bill of rights without due process.
Officers of the court conduct nullified statute, twist
21

rule of law obstruct due process. Respondent
facilitated enabled willful blindness obstruct justice
deny duty to disclosed evidence not to hear the
TRUTH; equated free people incarcerated prisoners
without bars; continuity of conduct established
Respondent voided founding principles In God We
Trust, the rights of man; void freedom, destroy
inalienable rights validated by multiple documented
acts Respondent imposed this court technicality
incarcerated prisoner common law sole intent voids
Bill of rights conceal failure enforce Law by IRS
established misprision of treason 18USC2382. U.S.
Court Federal Claims failure prosecute government
self dealing contracts: Respondent continuity of
conduct misapplication incarcerated prisoner
common law last fifteen years establish foundation
judicial, executive abuse of power, foundation
corruption institutionalized. Respondent nullified
22

Bill of rights inclusive Reexamination Clause
Seventh Amendment; Reexamination Clause violated
exposed corrupt court exposed; U.S. Tax Court Case
3747-04L established Reexamination Clause without
contracting officer there is no FAR 14 notice there is
no bidder; established Respondent unsuccessful
bidder false statement 18USC1001 established
foundation all legal decisions unsuccessful bidder
certified FRAUD; voided Contract Clause U.S.
Constitution, nullified individual rights voids Ninth
Amendment destruction inalienable rights interfere
Federal Statute voids Supremacy Clause.
Respondent issued unsuccessful bidder without FAR
14 notice Respondent nullified APA FAR statute.
Petitioner DOD Contractor^ Respondent conduct
established legal process, judicial system by officers
of the court systemic misuse incarcerated prisoner
doctrine established system corrupted, rife with
23

created common law abuse; misuse of authority,
evidence suppressed 18 USC 1519 by False
Statements 18 USC 1001, Petitioners’ evidence
exposed no contracting officers; no contracting
officer there is no bidding process by Congressional
Statute APA FAR government contracts, Petitioners’
evidence exposed self dealing government contracts
certified illegal act legal by office of President Agency
IRS; misuse of office Extortion, Respondent certified
fraud misuse incarcerated prisoner common law
facilitate Misprision felony 18USC 4. Respondent
failure enforce Constitution exposed by Case 374704L U.S Tax Court exposed Respondent Case
04Cv226 facilitated perjury 18USC1621 no FAR 14
there is no unsuccessful bidder: Respondent conduct
direct conflict with Congress’s Vesting Clause.'
Respondent unsuccessful bidder false statements
aforethought act destroy Petitioner’s liberty contract
24

property rights, Respondent’s intent concealed self­
dealing government contracts exposed by Petitioners
evidence Exhibit One! Respondent continuity conduct
exposed systemic misuse no legal merits imposed
incarcerated prisoner common law established
Respondent voided people file grievances be heard by
fraud upon court; Respondent obstructed duty
disclosed evidence; voided First, Fifth Amendment
by dissembled conduct, Respondent constructive
knowledge APA FAR no contracting officer exists
there never can be bid process! established
Respondents intent conceal government corruption
denied evidence heard issue doctrine civil rights law
given standing with judicial scrutiny rational basis
test direct conflict Tucker Act, established
conspiracy against United States 18USC371,
evidence replaced by fabricated false statements.' no
existence APA FAR 14 affirmed by writ of Scrire
25

19CV00696 SDNY: only request APA FAR 14 DOJ
failure provide APA FAR 14 notice unsuccessful
bidder,' established Respondent’s continuity conduct
courts weapons against the people with approval
office of President promotes officers of the court
certified fraud created law from the bench conceal
government self dealing contracts! Respondent
created law equated free citizens incarcerated
prisoners without bars, established open hostility
towards Enablement Clause Fourteenth
Amendment! freedom liberty redefined by
Respondent FREE PEOPLE equated by the courts,
incarcerated prisoners without bars! Respondent
created common law technicality incarcerated
prisoner common law executed with aforethought
only intent void rule of law! voids individual rights
established fingerprints fascist stated Gen McCauliffe
Battle of the Bulge stated correctly how to respond to
26

fascist intimidation, NUTS; only a fascist state
believe People will accept fraud, false statements
unsuccessful bidder with no APA FAR 14 notice; law
mandated Respondent provide evidence state
unsuccessful bidder Respondent must be in
possession APA FAR 14 notice: there is none: due
process obstructed, violated Fifth Fourteenth
Amendment: evidence dictates unsuccessful bidder
fabricated false statement 18USC1001, Petitioners
evidence document stated no contracting officers
established evidence suppressed: all decisions issued
unsuccessful bidder voided congress’s vesting clause:
unsuccessful bidder definition established by
contracting officer: Respondent previous decisions
certified fraud voided Respondent legitimacy
facilitated by Respondent equated U.S. citizens as
incarcerated prisoners without bars: suppressed
evidence in Respondent’s possession executed
27

contracts payments invoices over 1400 pages
evidence inclusive judicial findings Reexamination
Clause voided by Respondent continuity of conduct
misapplication of incarcerated prisoners common law
facilitated by Respondent’s perjury 18USC1621
unsuccessful bidder with no APA FAR 14 notice for
Petitioners evidence EXPOSED there was no
contracting officer,' Respondent conceal at all costs
inclusive destruction inalienable rights conceal
evidence exposed no contracting officer on
government contract enabled Respondent dissembled
conduct voided Bill of Rights without due process,'
Respondent issuance incarcerated prisoner common
law established malicious act with a singular intent,
destruction of evidence enabled by executive ,
judiciary two branches government collusion obstruct
Necessary Proper Clause U.S. Constitution,
Respondent aforethought nullified Supremacy
28

Clause mandated False Claims Act Rico Civil Rights
Act 1866; Respondent must provide FAR 14!
documented conduct Respondent arbitrarily voided
Bill of rights with approval of this court past history
without addressing fact instead conceal existence
Respondent’s court technicality origins facilitated
willful blindness not hear evidence enabled civil
rights law standing U.S. Court Federal Claims:
foundation court past history voided Tucker Act
28USC1491 created common law from the bench
altered government voided legitimacy U.S.
Government represent the people: Respondent void
U.S. Constitution freedoms by aforethought, Officers
United States only intent promoted fabricated stories
by false statements 18USC1001 unsuccessful bidder
enforced as law by judicial opinion on government
contract is not law; APA FAR 14 is law by congress’s
vesting clause: Respondent mandated by law provide
29

contracting officer notice unsuccessful bidder FAR
14, an impossible feat for Petitioners evidence
exposed no contracting officer: evidence destroyed by
court technicality never had legal standing U.S.
Court Federal Claims,' incarcerated prisoner common
law sole intent suppressed evidence 18USC1519
voided Equal Protection Clause, Petitioners’ evidence
exposed no contracting officer; specificity Petitioner
DOD Contractor statute APA FAR government
contract statute defines unsuccessful bidder not an
arbitrary opinion is not law, unconstitutional
conduct, created common law from the bench
established acts against sovereign U.S. Constitution
by Office of President promoted arbitrary decisions
gestures due process promoted as due process
established foundation unconstitutional conduct by
certified fraud unsuccessful bidder without APA FAR
14; Respondent decisions founded on rational basis
30

test, decision origin U.S. Court Federal Claims
established Respondent voided Tucker Act
28USC1491, proceeded certified fraud as fact,
destroyed inalienable rights contract property
liberty, Respondent sole intent keep status quo self
dealing government contracts. Respondent’s
arbitrary capricious decisions obstructed due process
of law 18USC 1503; Tucker Act mandated strict
scrutiny: Respondent decisions outside jurisdiction
U.S. constitution issued orders no legal merits
established arbitrary conduct defined as tyranny;
Declaration of Independence, Magna Carta:
Respondent interference False Claims Act Civil
Rights Act 1866 Rico. Respondent suppressed
evidence two letters exposed self dealing government
contract established no accountability federal funds
spent, conceal government self dealing contracts!
Misprision of felony concealed exposure government
31

waste fraud abuse concealed by agencies mandate
enforce the law, established IRS failure prosecute;
established taxation without representation,
Respondent legitimacy voided, law mandates inverse
presumption of liberty Ninth Amendment;
Respondent altered government from within; Office
of President Agencies defended self dealing
government contracts enabled by office of President
informed IRS failure prosecute voided accountability,
enabled dereliction duty defend Sovereign U.S.
Constitution, IRS FBI DOJ void people rights to due
process aided by courts collusions create technicality
misapplication incarcerated prisoner common law
void Bill of rights without due process established by
continuity of conduct Respondent only loyalty
protected corruption of office President agencies
enable failure prosecute, IRS FBI DOJ failure
enforce statute established treason against sovereign
32

U.S. Constitution 18USC2381 enabled by courts
facilitated willful blindness, created court
technicality, incarcerated prisoner common law void
duty to disclose evidence against Pro Se Petitioners,
conceal IRS failure prosecute established Misprision
of Treason 18USC2382, certified fraud, false
statement 18USC1001 unsuccessful bidder destroyed
contract property liberty rights false statements
18USC1001 issued, facilitated void Ninth
Amendment enabled destruction inalienable rights
established tyranny voided Respondent legitimacy to
govern! Respondent voided Rule of law: Respondent,
this court bound to rule of law be enforce by
Marbury v Madison 5 US 137, 163; established law
mandated Statute Constitutional Amendments
Supreme Law; Fraud on court decisions unsuccessful
bidder enabled when this court accepted court
technicality incarcerated prisoner common law
33

facilitated created common law from the bench
suspends Bill of Rights without due process U.S.
Supreme Court voided its own authority, no longer
defends Supremacy Clause U.S. Constitution.
Respondent BAD CONDUCT voided authority
Article III, breach Contract Clause U.S, Constitution
void rule of law enables elite above the law voids the
Republic^ nullified Article IV Guarantee Clause U S
Constitution.
Granting the Writ
Respondent Court created Technicality with office of
President void government accountability to the
people.. Respondent misused their office, an act of
extortion violated oath “preserve and defend the
Constitution," Article II, §1(8). The panel mandated
exercised

original jurisdiction

over

(and then

disposed of) this suit of “national significance” in this

34

unprecedented way by not enforce statute or U.S.
constitution

but

misuse

common

law,

void

constitutional freedoms conceal misuse incarcerated
prisoner common law established judicial executive
overreach suspend Bill of rights without due process
of law! decision, panel not only committed legal error,
but also effected a sweeping expansion of appellate
jurisdiction irreconcilable with Cohen v. Beneficial
Industrial Loan Corp. 337 U.S. 541 1949; Supreme
Court held to be appealable those orders which
"finally determine claims of right separable from,
and collateral to, rights asserted in the action, too
important to be denied review and too independent of
the

cause

itself to

require

that

appellate

consideration be deferred until the whole case is
adjudicated. Respondent nullified inalienable rights
founded Bill of Rights! destruction inalienable rights
mandated Ninth Amendment
35

U.S. Constitution

voids Respondent legitimacy voided by Courts
failure recognized Supreme Court Ruling Marbury v
Madison 5 U.S. (l Cranch) 137, 176 (1803), Supreme
Court verified mandated U S Constitution is LAW:
Supreme Law: statute, constitutional amendments
cannot be voided by arbitrary common law created
from the bench; origin incarcerated prisoner common
law created false statement 18USC1001 unsuccessful
bidder, Respondent defense; written declaration
unsuccessful bidder established false statement
exposed by Petitioners evidence established no
contracting officers necessary enable due process of
law established APA FAR 14 notice unsuccessful
bidder only contracting officer issues notice can
identify unsuccessful bidder by evidentiary support
of

bidding process necessary component have a

contracting officer: no contracting officer there is no
solicitation for a bid, misapplication incarcerated
36

prisoner common law executed by judge discretion
violated will of the legislature, Supreme court
decision Bush v. Palm Beach County Canvassing
Board, 531 U.S. 70 (2000), Respondent obstructed
due process with extreme malice aforethought voided
Federal Statute Civil Rights Act 1866 False Claims
Act all to conceal IRS certified illegal act self dealing
government contracts to federal employees

inside

the government an illegal act arbitrarily certified by
IRS legal, became exposed by U.S. Tax Court Case
3747-04L; U.S. Court Federal Claims void all 1400
pages evidence denied be disclosed by issuance
incarcerated prisoner common law has no legal
merits to contract law. U.S. Government contract
fraud certified illegal acts as legal; Respondent’s IRS
treason concealed by Respondent’s misapplication
incarcerated prisoner common law issuance: intent
void obstruct due process of law; Supreme Court
37

established authority on legal foundation Marbury v
Madison

enforce

Supremacy

U.S.

Clause

Constitution: incarcerated prisoner common law
misapplied U.S. Court Federal Claims; voids its own
authority!

oath

“preserve

and

defend

the

Constitution,” Article II, §1(8). Court failed in past
04*10473, 11A224 15* 498 three times 15 years Court
enforced created common law concealed judges
created

technicality

misapplication

incarcerated

prisoner law commonly misused for only one intent;
suppressed

evidence

government

self

dealing

contracts exposed by Petitioners’ Exhibit l; Court
voided Bill of rights placed politics corruption self
dealing enabled by Office of President outside
jurisdiction U.S. Constitution. Petitioners’ right to be
heard voided by court created technicality condition
precedent void duty disclosed evidence! discovery
denied replaced by fabricated false statements
38

unsuccessful bidder when all courts possession of
evidence established impaired Contract Clause US.
Constitution Article I Sec 10i facilitated Misprision of
treason

Office of President conceal IRS failure

prosecute self dealing government contracts violated
18USC241

deprivation

of

rights,

facilitated

conspiracy against rights 18USC242 by interference
federal statute 10USC333 Specifically False Claims
Act 31 US. C. §§ 3729 - 3733, Civil Rights Act 1866
RICO 18USC1961- Respondent dissembled conduct
omission condition precedent incarcerated prisoner
common law enabled FRCP 26B(iv) denies disclosure
Petitioners Pro Se evidence voids right to be heard:
conceal Respondent failure prosecute 1996 IRS self
dealing laws

26USC4941

established

Treason

18USC2381- motivation Respondent facilitated Court
created technicality civil rights incarcerated prisoner
common law with no legal standing, facilitated
39

misuse rational basis test enabled Respondent
suspend Bill of Rights:
I. Respondent voided Rights of the Individual
Ninth Amendment voided by Respondent court
created technicality misapplied facilitate mandamus
relief is otherwise “appropriate under the
circumstances.” Cheney v. United States Dist. Court
forD.C., 542 U.S. 367, 380-81 (2004). Only,
“exceptional circumstances amounting to judicial
‘usurpation ofpower”’ or a “clear abuse of discretion”
will “justify the invocation of this extraordinary
remedy. Maxims void freedom to American people,
Respondent legislate by misuse rational basis test
created law by declaration (a king), arbitrary actsKing can do no wrong has no basis in our
government•' Langford v United States 101 U.S 34U
established Respondent facilitated caste system
40

above the law: certified fraud legitimate by created
common law from the bench: Quis custodiet ipsos
custodes? Who will guard the guards themselves;
Respondent obstruction Ninth Amendment
disparages rights retained by the people suppression
Equal Protection Clause holds Respondent liable
under the law! United States v. Nixon, 418 US. 683
(1974). “the fundamental demands of due process of
law in the fair administration ofjustice. ”
Respondent, origin contempt Ninth Amendment: US
Court Federal Claims arbitrarily destroyed contract:
nullified Liberty, Enablement Clause Fourteenth
Amendment voided legitimacy U. S. Government;
stated by St. George Tucker, author first
constitutional treatise, agreed with Madison. Tucker •'
"View of the Constitution of the United States" Ninth
Amendment guarded the people's collective right to
alter or abolish their form ofgovernment' under the
41

principles of the Ninth and Tenth Amendments, "the
powers delegated to the federal government, are, in
all cases, to receive the most strict construction that
the instrument will bear, where the rights of a state
or of the people, either collectively, or individually,
may be drawn in question. "Exposed court created
technicality established malice act enabled failure to
hold person or persons accountable rule of law;
Respondent not held accountable established
arbitrarily abuse of power by misapplication
incarcerated prisoner common law voided Bill of
rights; Petitioners constitutional right to petition
nullified been exposed by Respondent’s status quo
altered Constitution’s Guarantee Clause enabled by
court created technicality incarcerated prisoner
common law only intent destruction evidence voids
inalienable rights; this unconstitutional practice only
singular malice intent destroy evidence; enabled
42

Respondent deny duty disclosed evidence FRCP
26B(iv) established Respondent mal in se misuse
office extortion facilitated destruction constitutional
freedoms by continuity conduct. Respondent created
common law from the bench by collusion two
branches government facilitated Respondent
systematically equated all U.S. Citizens incarcerated
prisoners without bars; Court’s constructive
knowledge decision 04CV226 judicial opinion
foundation rational basis test established Court’s
perverse act, voided Tucker Act, nullified Congress’s
Vesting Clause established Respondent interference
False Claims Act Statute 10USC333 established
foundation destruction property contract liberty
rights exposed by Tax Court judicial findings same
exact evidence exposed declaration unsuccessful
bidder false statement proven false; 2007 U.S. Tax
Court 3747-04L, judicial findings exposed IRS lied
43

why IRS state under oath of perjury Petitioner Wolf
HIRED; Respondent conceal U.S Court Federal
Claims misprision of treason destroyed facilitated
deprivation of rights 18USC241; IRS failure
prosecute self dealing government contracts 1996
whistleblower complaint IRS self dealing government
contracts 501C foundation became realization IRS
certified illegal acts legal upon IRS disclosure IRS
does not investigate fraud \ defines IRS conduct
Treason 18USC2381. EXHIBIT 1 two letters June
10, 1996 June 7, 1996 established reasonable person
with sound mind could convict on extortion Hobbs
Act 18USC1951 violations by misuse office, contract
manipulations pass substantial evidence test June 7
1996 letter established NO COR COTR, no
contracting officer: established by FAR 14.409’1
Notice of award, mailed to unsuccessful bidders
established no bidding process; June 10, 1996 letter I
44

am primary contractor simultaneously letterhead
established Athletic director misuse office for
improper gains, same Athletic Director witness for
IRS declare primary contractor, simultaneously
government employee violated extortion see US. v
Margiotta, 688F.2d 108 (2nd Circ 1982): “Court held
that extortion “under color ofofficial right” occurs
“when a public official makes wrongful use ofhis
office” whether or not “the wrongful use ofhis office
is accompanied by actual or threatened forces”.
Respondent practice arbitrarily destroy evidence by
created common law established tyranny! civilian
authority govern legitimacy is voided by misuse this
court technicality destroys inalienable rights^
Respondent malice voided inalienable rights voids
legitimacy to govern established officers United
States dereliction of duty defend U S Constitution,
Supreme Court failed in past defend individual
45

rights Ninth Amendment mandated origin U..S.
Constitution voided Respondent failed American
People protect, defend inalienable rights established
legitimacy voided; sovereign U.S. Constitution
nullified from within! rule of law voided by common
law from the bench created systematically by
continuity of conduct officers of the court apply
technicality incarcerated prisoner common law only
malice intent void, destroy evidence, obstruct
disclosure violated 18USC1519: evidence suppressed
disclosed overt act government self dealing contracts,
Respondent continuity of conduct suppressed equal
protection clause Respondent interfere with Federal
statute 10USC333 obstruct due process enabled by
incarcerated prisoner common law commonly used,
an establish courts practiced voids rights of
individuals established failure protect individual
freedoms by judicial executive abuse of power!
46

Respondent’s contempt individual rights Ninth
Amendment by failure give fair hearing by
misapplication incarcerated prisoner common law
established all decisions unconstitutional conduct no
proper disclosure or discovery process established
gesture due process on all orders issued see Mullane
v Central Hanover Bank & Trust 339 U.S. 306. 70 S.
Ct. 652 (1950) Respondent voided APA FAR Statute
replaced with fiction obstruct Due process Fifth
Amendment created law, nullified Tucker Act,
Respondent took the law into their own hands and
should have known better see Monell vs Social
Services 436 US. 658 (1978) Respondent
voided Enablement. Due Process. Liberty Clause
Fourteenth Amendment intent destroyed evidence,
established Self Dealing Government Contracts,
Exhibit One stated NO Contracting officers
established Respondent issued just gesture of due
47

process established constructive knowledge Ninth
Amendment mandated protection contract property
liberty voided by Respondent misapply incarcerated
prisoner common law U.S Court Federal Claims
established Respondent malice intent voided contract
law, nullified Tucker Act voids Respondent
legitimacy to govern! due process obstructed in all
cases against Pro Se- opinions issued certified fraud
by aforethought with malice intent destroy freedom
from within for all parties was with full constructive
knowledge disclosure was obstructed from origin- see
Envelope Co. v. Denominational Envelope Co., 80
F.2d 179, 182 (4th Cir.1935) “ofall material facts of
which an officer acquires knowledge while acting in
the course ofhis employment and within the scope of
his authority.” Petitioners have no federal felony
records: Respondent acting fast and loose with the
judicial machinery see Difriscbia v New York
48

Central railroad Company 307F.2d 473 (3d Cir.
1960). Respondent doctrine is a Maxim;
incarcerated prisoners unsuccessful bidders
obstructed due process! conceal officers standards of
conduct FAR 3.101 establish transparency of funds!
needs contracting officer, notice of award APA FAR
14: APA FAR’s procedural due process, defines
unsuccessful bidder, Respondent certified illegal act
perjury legal enabled by maxim incarcerated
prisoner obstructed duty disclosed FRCP 26(B)(iv)
nullified, voided Reexamination Clause concealed
Respondent voided separation of powers exposed
U.S. Court of Federal Claims created law from the
bench see Erie Railroad v Tompkins. 304 U S 64
(1938): “The Supreme Court held that federal courts
lacked the power to create common law, violation of
the separation ofpowers”
Respondent altered government enabled by
49

causation common law created by court Technicality:
Respondent voided contract rights only intent
obstructed procedural due process created
obstruction to remedy by concealment Misprision of
Treason 18 USC2382 Respondent alter contract
singular intent certified fraud with fabricated Bid
conceal IRS failure to prosecute self-dealing
government contracts by Respondent aforethought
acts fraud extortion, violated Antoni v Greenhow 107
U.S. 469, 271. ed. 468/ contracts are inalienable
rights see State ofNew Jersey v. Wilson, 7 Cranch,
164, 166, where it is declared that the contract clause
of the Constitution "extends to contracts to which a
State is a party, as well as to contracts between
individuals, " ox in Providence Bank v. Billings, 4 Pet.
514, 560\ where this court, speaking by Chief Justice
Marshall, said that it had "been settled that a
contract entered into between a State and an
50

individual is as fully protected by the tenth section of
the first article of the Constitution, as a contract
between two individuals!"ox in Green v. Biddle, 8
Wheat. 1, 84, where it was said, through Mr. Justice
Washington, "that the Constitution of the United
States embraces all contracts, executed or executory,
whether between individuals, or between a State and
individuals/ and that a State has no more power to
impair an obligation into which she herselfhas
entered than she can the contracts ofindividuals," ox
in Woodruff v. Trapnall, 10 How. 190, 207, where,
speaking by Mr. Justice McLean, the court declared
that "a State can no more impair, by legislation, the
obligation ofits own contracts, than it can impair the
obligation of the contracts ofindividuals," ox in Wolff
v. New Orleans, 103 U.S. 358, 367, where, speaking
by Mr. Justice Field, this court unanimously held
"that the prohibition ofthe Constitution against the
51

passage oflaws impairing the obligation ofcontracts
applies to the contracts ofStates, and to those ofits
agents under its authority, as well sis to contracts
between individuals. Respondent impaired contract
misused maxims Rational Basis Test on contract law,
misapplication rule 12b, interfered False Claims Act
destroyed contract, property rights, interfered Civil
Rights Act 1866, stated by writers Civil Rights Act
1866”Senator Edmunds, for example, “section 1983
uncontroversial because it tracked the Civil Rights
Act of1866, • which criminalized interference with
specific, delineated interests, such as "the right to
make and enforce contracts) Respondent voided
retained Rights by the people established Reverse
Preemption Ninth Amendment; Petitioners’
mandates enforcement 10 USC 333: Respondent
bound to limited powers. To what purpose are powers
limited, and to what purpose is that limitation
52

committed to writing> if these limits may at any
time, be passed by those intended to be restrained
Marbury v Madison 5 U.S. (l Cranch) 137, 176
(1803). Ninth Amendment Individual Rishts voided
established Constitutional Crisis contempt rule of
law, certified fraud, suppression Equal Protection
Clause interference with statute! denies people
access to the courts, destruction inalienable rights
contract, property, liberty: Edmund Randolph stated
that “a republican government must be the basis of a
national union! and no state in it ought to have it in
theirpower to change its government into a
monarchy. ” ■ Madison Federalist No. 43: “the
superintending government ought clearly to possess
authority; defend the system against aristocratic or
monarchical innovations Constitution: reverse
incorporation-’it would be unthinkable that the same
Constitution would impose a lesser duty on the
53

Federal government.” Bolling v. Sharpe, 347 US. at
500', Lynch v. Household Finance Corp., 405 U.S. 538
(1972): " .. there is no real dichotomy between
personal liberties and property rights. Respondent
altered government gave standing Civil Rights U.S,
Court Federal Claims exposed by U.S. Tax Court
judicial findings; Respondent again destroyed
evidence Court Case 08CV5071 voided
Reexamination Clause by misuse court technicality
became exposed Jan 2018 established continuity
conduct at origin 2004, established Respondent
systematically certified fraud legal, altered
dichotomy rule of law Respondent certified false
statements unsuccessful valid fraudulent act; bidder
obstructed procedural due process Civil Rights Act
1866 voided contract interfered False Claims Act;
United States v. Sciuto, 521 F.2d 842, 845 (7th Cir.
1996) "The right to a tribunal free from bias or
54

prejudice; based, on Due Process Clause•' U.S
Constitution; obligation requires congressional
enactments be judged by standards of the
Constitution. “ Trop v. Dulles, 356 U.S. at 103. The
significance ofthe judicial oath is illuminated by that
of the President, who does not swear to defend the
nation, but to ‘’preserve and defend the
Constitution, ” Article II, §1(8). Note John Adams’
insistence on “exact" observance ofthe “fundamental
principles ofthe constitution

II. PETITIONERS NEVER HEARD

D C Circuit Court of Appeals error Petitioners
evidence never heard in all cases- disclosure evidence
voided by declaration incarcerated prisoner common
law voids inalienable rights: court failed recognized
Ninth Ampnrlmpnt judges lacking a proper view of
55

the Ninth Amendment., “outcome oflawsuit would be
virtuallypre-determined:government wins”bv
rational basis test: JJ,S. citizen loses-' Why
Respondent motivated voided Tucker Act; enabled
standing civil rights law outside jurisdiction U.S.
Constitution enabled civil rights law facilitated fraud
upon the court violated administration justice,
obstructed judicial machinery to function properly;
Respondent aforethought act; misapplication
incarcerated prisoner common law voided
unenumerated rights established foundation
American law innocent until proven guilty
established in inalienable right liberty Ninth
Amendment, established by legal foundation
presumption ofliberty, facilitates heighten scrutiny>
strict scrutiny mandated Tucker Act! Respondent
evade being accountable rule oflaw mandated,
Respondent obstructed False Claims Act dictated by
56

voice of the legislature established removes burden of
prooffrom the citizen to the government. Respondent
obstructed by imposed Fraud on the court
misapplication rational basis test facilitated Fraud
upon the court. “ Whenever any officer ofthe court
commits fraud during a proceeding in the court,
he/she is engaged in "fraud upon the court". Bulloch
v. United States, 763 F.2d 1115, 1121 (10th Cir.
1985), court stated "Fraud upon the court is fraud
which is directed to the judicial machinery itselfand
is not fraud between the parties or fraudulent
documents, false statements or perjury.... It is where
the court or a member is corrupted or infuenced or
influence is attempted or where the judge has not
performed his judicial function — thus where the
impartial functions ofthe court have been directly
corrupted." "Fraud upon the court"has been defined
by 7th Circuit Court of Appeals to "embrace that
57

species offraud which does, or attempts to, defile the
court itself, or is a fraud perpetrated by officers of
the court so that the judicial machinery cannot
perform in the usual manner its impartial task of
adjudging cases that are presented for adjudication."
Kenner v. C.I.R.. 387F3d 689 (1968)/ 7Moore's
Federal Practice. 2d ed., n. 512. f 60.23. The 7th
Circuit further stated "a decision produced by fraud
upon the court is not in essence a decision at all, and
never becomes final. ” What effect does an act of
"fraud upon the court"have upon the court
proceeding? "Fraud upon the court"makes void the
orders, judgments of that court, "fraud upon the
court" vitiates the entire proceedingln other words
certified fraud on the court valid: judge acted upon
misuse of office! if judge acts without jurisdiction, he
has engaged in treason to the Constitution. Instead
ofimposing the burden on the citizen to establish the
58

violation ofa "fundamental" right, a burden as
mandated by Congress False Claims Litigation, Rico,
Civil Rights Act 1866 burden be imposed on the
government, Valparaiso University Law Review. Vol.
26. No. 1119911. Art. 26 1 FOR TODAY’S
CONSTITUTION429: Ninth Amendment
established presumption ofliberty thereby placing a
burden ofjustification on the government, every
action of government, that infringes upon the rightfill
liberties of the people can he called into question.
Respondent equated all U. S. citizens incarcerated
prisoners without bars Respondent malice intent
voided Ninth Amendment Presumption ofliberty!
Courts acknowledge Ninth Amendment's unique
constitutional function by resisting legislative or
executive usurpation of the unenumerated rights
"retained by the people" while, at the same time,
avoiding unfettered judicial discretion. That created
59

this interference unfettered judicial executive
discretion voided Tucker Act imposed suppression
evidence by misapplication incarcerated prisoner
common law established interference with Federal
Statute 10USC333 False Claims Act Civil Rights Act
1866 voids Respondent’s legitimacy govern:
Respondent asserted willful blindness
misapplication incarcerated prisoner common law
unsuccessful bidders fictional false statement
without evidence: Respondent has no possession
FAR 14 notice APA FAR statute government
contracts defines unsuccessful bidder which never
happen, affirmed by rules of evidence, bidder does
not exist for contracting officer does not exist,
Petitioners’ evidence Exhibit l; Respondent
certified fraud asserted as law by declaration with
misapplication incarcerated prisoner common law
void APA FAR Statute, only FAR 14 notice presented
60

with contractor officer report can define unsuccessful
bidder which never happen; just fiction by
Respondent history enforce declarative statement
exposed false statement by judicial findings U.S. Tax
Court case 3747-041 established U.S. Court Federal
Claims Case facilitated Misprision of felony; no
evidence Bid existed; destruction of evidence by
misapplication incarcerated prisoner common law
has no legal merits False Claims litigation,
Respondent mandated by Congressional statute
Rules Enabling Act: rules of evidence provide
disclosure; Pro Se constitutional right self
representation protections voided when disclosure
obstructed conceal evidence suppressed by
misapplication incarcerated prisoner civil rights law
no legal standing was given standing enabled
Respondent void APA FAR Statute, facilitated false
statement unsuccessful bidder, Petitioners’ evidence
61

exposed government corruption, suppressed by
Respondent continuity conduct systematically
altered law facilitated English Law enabled court
proceedings be a star chamber see Faretta v.
California. 422 U.S. 806 (1915)-"the Star Chamber
has, for centuries, symbolized disregard ofbasic
individual rights. Star Chamber not merely allowed,
but required, defendants to have counsel. The
defendant's answer to an indictment was not
accepted unless it was signed by counsel. When
counsel refused to sign the answer, for whatever
reason, the defendant was considered to have
confessed."
Respondent altered government from within,
concealed IRS failure prosecute, enabled impairment
contract destroyed People’s retained Rights;
established tyranny'• voids legitimacy, established
contempt to Bill of Rights by ingenious
62

misapplication incarcerated prisoners common law
enabled false statements unsuccessful bidders
created an affirmation in particular cases implies a
negation in all others denied Petitioners to be
heard, created maxim, voided Ninth Amendment see
Joseph Story, Commentaries on the Constitution of
the United States §1007 (5th ed. 1905):, Respondent
destroyed Rierhts ofman- that national interests and
people’s naturalrishts are to be the government
duty, safeguard the people•' Respondent’s
institutions oversight IRS FBI DOJ U.S. Court
Federal Claims enabled, status quo continued,
government contract fraud established national
security threat enabled by condition precedent,
denies people access to the courts voids First
Amendment protections has long been recognized as
an indispensable attribute ofan Anglo-American
trial\ Both Hale in the 17th century and Blackstone
63

in the 18th saw the importance of openness to the
proper functioning of a trial; it gave assurance that
the proceedings were conducted fairly to all
concerned, and it discouraged perjury, the
misconduct of participants, and decisions based on
secret bias or partiality. See, e. g., M. Hale, The
History of the Common Law of England 343-345 (6th
ed. 1820); 3 W. Blackstone, Commentaries *372*373. Jeremy Bentham not only recognized the
therapeutic value of open justice but regarded it as
the keystone'
"Without publicity, all other checks arc inaufficiaot: in
comparison ofpublicity, all other checks are ofsmall
account. Recordation, appeal, whatever other institutions
mifrht present themselves in the character ofchecks.
would be found to operate rather as cloaks than checks>' as
cloaks in reality, as checks only in appearance." 1J.
Bantham. Rationale of Judicial Evidence 524 (1827).

64

Respondent failure disclosure evidence by chicanery.
voided Ninth Amendment through misapplication
incarcerated prisoner common law enabled Courts
misapplied by dissembled conduct FRCP 26B(iv)
destruction evidence without disclosure. Respondent
actions direct conflict Respondent own policy
dissembled conduct, George WBush May 1, 2005
Proclamation dissembled conduct waste courts time
clogs the court: Respondent wasted time only intent
keep status quo self dealing government contracts
concealed by Respondent’s agency IRS facilitated self
dealing government contracts exposed by U.S. Tax
Court Case 3747-04L hearing! IRS stated witness
government employee also primary contractor
confirmed statements Exhibit One two letters
exposed IRS failure enforce law, Respondent
concealed by destruction inalienable rights^
suppressed evidence : dissembled conduct equated
65

all U.S. citizens as incarcerated prisoners
Respondent voided fairness, discovery "is not a one­
way proposition"• Hickman v. Tavlor. 329 US 495.
329 US 507. Issues cannot be resolved by doctrine of
favoring one class oflitigants over another,' suspect
class Petitioners Whistleblowers Wolf, woman owned
business, whistleblower Fallica ethnic slur, Piscitello
disabled woman. Respondent usurped power,
deprived Petitioners of life, liberty, or property,
impaired contract: U.S Constitution. The basic
principle our Government is one oflimited powers
and that such an arrogation of unlimited authority
by Respondent cannot be supported by the language
or the history ofany provision of the
Constitution. See, e.g, Adamson v. California. 332
U.S.46, 332 U.S.68 (1947) (dissenting
opinion); Griswold v. Connecticut, supra, at 381 U.S.
507 (1965) (dissenting opinion). When this Court
66

assumes for itself the power to declare any law -state or federal •• unconstitutional because it offends
the majority's own views of what is fundamental and
decent in our society, Petitioners whistleblowers
Realtors, Private attorney generals authorized by
Congress’s Vesting Clause, by statute, Supremacy
Clause U.S Constitution nullified when Respondent
equates U.S. citizen fight for people’s individual
rights are equated by Respondent incarcerated
prisoners without bars established foundation
enabled Respondent’s systemic fraud issued
unsuccessful bidder government contracts without
evidence Far 14 notice established false statement
18USC1001, aforethought act conceal Respondent’s
self dealing government by OfScers United States
Judges DOJ FBI IRS conduct established contempt
rule oflaw, voided inahenable rights,' altered
government voided rule oflaw this great Nation
67

ceases to be/ rule oflaw voided altered be governed
according to the "law ofjudges” voided people
freedoms by arbitrary acts. Higher Scrutiny
mandated* Carolene Products Footnote 4, 304 U.S.
144-IRS admitted, HIRED, Reexamination Clause ,\
Contracting officer (C.OR.; COTR) only defines
unsuccessful bidder by FAR 14 notice can never
happen, evidence exposed no C.O.R., none exists;
Respondent intent conceal self dealing government
contracts evidence destroyed by fraud perjury
obstruction inalienable rights! Respondent equated
free citizens petition court Pro Se be classified
incarcerated prisoners without bars established
collusion, executive, judiciary obstructed evidence
disclosed while possession evidence contracts
executed checks Respondent suppressed Equal
Protection Clause by systemic continuity conduct
misapplication incarcerated prisoner common law
68

facilitated willful blindness enabled deny duty
disclosed evidence, aforethought acts destruction
evidence Respondent enforce FRCP 26 B (iv):
(B) Proceedings Exempt from Initial Disclosure. The
following proceedings are exempt from initial
disclosure•' (iv) an action brought without an attorney
by a person in the custody of the United States, a
state, or a state subdivision/
Respondent never acted on statute; Respondent
condition precedent incarcerated prisoner common
law deny duty to disclosed; facilitated Respondent
void statute APA Contract Law conceal law
mandates FAR 14 notice be produced established
unsuccessful bidder! incarcerated prisoner common
law issued no legal merits nor standing, origin False
Claims Litigation, U.S. Court Federal Claims
Respondent obstructed due process clause Fifth

69

Fourteenth Amendment voided Federal Statute
empower U.S. citizen protect their rights, American
people from corruption obstructed voice of the
legislature interfered False Claims Act enabled by
Respondent’s abuse of power incurred by
misapplication incarcerated prisoner common law
originated U.S. Court Federal Claims Court, civil
rights law enabled where Civil Rights has no legal
standing, Respondent facilitated dissembled conduct
empower FRCP 26B(iv); equated all U.S Citizens
incarcerated prisoners without bars voided Bill of
rights repealed Thirteenth Amendment established
abuse of power see Bankers life & Cas. Co. v Holland
346 U.S349, 382*385 74 S.Ct 145, 98L.Ed 762:
Respondent’s contempt for Rule of law, misuse Rule
12b, issued Motion Dismiss foundation rational basis
test introduced fiction incarcerated prisoner common
law void disclosure 1400 pages of evidence by
70

Respondent given Civil Rights standing in direct
conflict Tucker Act; declaration unsuccessful bidder
nullified APA FAR Christian Doctrine only FAR 14
notice can state unsuccessful bidder proven by U.S.
Tax Court judicial findings Respondent cannot
provide FAR 14 notice: Respondent enabled
misapplication incarcerated prisoner common law in
a court with no legal standing civil rights but
dissembled conduct applied FRCP 26B(iv)
Respondent conceal due process dictated Respondent
provide APA FAR 14 contracting officer report;
evidence suppressed by misapplication incarcerated
prisoner common law facilitated dissembled conduct
FRCP 26B(iv) applied suppressed all evidence with
complaint, facilitate Rule 12 in Respondent favor
since evidence voided suppressed denied disclosure:
Respondent voided Ninth Amendment, incarcerated
prisoner common law a maxim initiated malice
71

intent void strict scrutiny, suppressed Petitioner
evidence originated U.S. Court Federal Claims
enabled Respondent standing civil rights;
incarcerated prisoner common law doctrine denied
duty hear evidence: suppressed evidence exposed no
contracting officers existed, federal employee
simultaneously primary contractor established act
extortion certified illegal act legal by office of
president Agency IRS : no contracting officer
established APA FAR 14 notice unsuccessful bidder
does not exist; but exposed as false statements
18USC1001 issued by perjury 18USC1621
suppressed evidence 18USC1519 facilitated
obstruction of justice 18USC1503 . Respondent
conceal self dealing government contracts by this
continuity conduct established Respondent
Fraudulent intent is shown if arepresentation is
made with reckless indifference to its truth or
72

falsity. Cusino. 694 F.2d at 187. In addition,
"[fraudulent intent may be inferred from the modus
operandi of the scheme." United States v. Reid. 533
F.2d 1255. 1264n. 34(D.C. dr. 1976) ("fTlhe
purpose ofthe scheme 'must be to injure, which
doubtless may be inferred when the scheme has such
effect as a necessary result ofcarrying it out.")
(quoting United States v. Resent Office Supply Co..
421 F.2d 1174. 1180-81 (2d Cir. 1970)
(quoting Horman v. United States. 116 F, 350. 352
(6th Cir.). cert, denied. 187 US. 641 (1902)).
Respondent scheme void Ninth Amendment keep
government corruption going enabled no
accountability be retained as status quo void
individual rights voids a republic to a monarchist
government with a class above the law voids natural
rights, Rights of man established ALL People are
Created Equal.
73

CONCLUSION
Respondent facilitated doctrine INCARCERATED
PRISONER COMMON LA W VOIDED RIGHT BE
HEARD;EQUATED U.S CITIZENSHIP
INCARCERATED PRISONERS WITHOUT BARS is
not to be tolerated, enabled Respondent void
inalienable rights/ doctrine incarcerated prisoner
common law is not compatible U.S. Constitution. It is
the doctrine ofabsolutism, pure, simple, and naked it
enabled Respondent created common law from the
bench voided rule oflaw made mockery American
justice system, institutions, office of President
executive agencies IRS DOJ FBI collusion with
Judiciary voided fundamental rights of liberty.
American People denied access to the courts is
Freedom denied: imposed arbitrary acts as law
established denial Bill of Rights validated tyranny
voids legitimacy to govern, established MANDATE
74

10USC333 Martial law until congress gives oversight
protect the people from Respondent bad behavior;
hold all cases comprised 19-5291 are nullities created
by fraud enabled by misuse incarcerated prisoner
common law doctrine obstructed justice last fifteen
years- holds Respondent accountable, liable to rule
of law, accountable to continuity of conduct
facilitated malice destruction Petitioners inalienable
rights by Respondent misuse incarcerated prisoners
common law, established Respondent aforethought
acts voided Petitioners natural rights; established
destruction inalienable rights. Petitioners pray,
petition this court: restore Petitioners inalienable
rights, restore Guarantee Clause, protect
Sovereignty United States Constitution, stated by
George Washington What price freedom: Meus dux
sit veritas: my guide is the truth, Petitioners
mandated government must be truthful: if not, there
75

is no leadership no protection of sovereignty U.S.
Constitution^ leadership through truth.

76

May 16, 2020

Cheryl A. Wolf
Dept of Defense Contractor Cage Code 03PL0
C/O Raymond J Fallica
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 747-6124

Raymond J Fallic^4dministrator
Administrator Dept Defense Contractor
6 Ethel Court
Wheatley Heights New Yorkll798
Tel 631 374-4649

Mary Piscit
C/O Raymond J Fallica
6 Ethel Court
Wheatley Heights New York 11798
Tel 631 747-6297

c.c.

DOJ Solicitor General

77

